U.S. Department of Justice
Office of the Inspector General




   Report to Congress on Implementation
   of Section 1001 of the USA PATRIOT Act
       (as required by Section 1001(3) of Public Law 107-56)




                                            February 2010
        Section 1001 of the USA PATRIOT Act (Patriot Act), Public Law 107-56,
directs the Office of the Inspector General (OIG) of the U.S. Department of
Justice (DOJ or Department) to undertake a series of actions related to claims
of civil rights or civil liberties violations allegedly committed by DOJ employees.
It also requires the OIG to provide semiannual reports to Congress on the
implementation of the OIG’s responsibilities under Section 1001. This report –
the sixteenth since enactment of the legislation in October 2001 – summarizes
the OIG’s Section 1001-related activities from July 1, 2009, through
December 31, 2009.

I. INTRODUCTION

      The OIG is an independent entity within the DOJ that reports to both the
Attorney General and Congress. The OIG’s mission is to investigate allegations
of waste, fraud, and abuse in DOJ programs and personnel and to promote
economy and efficiency in DOJ operations.

      The OIG has jurisdiction to review programs and personnel in all DOJ
components, including the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the U.S. Attorneys’
Offices, and other DOJ components. 1

       The OIG consists of the Immediate Office of the Inspector General and
the following divisions and offices:

       •   Audit Division is responsible for independent audits of Department
           programs, computer systems, and financial statements.

       •   Evaluation and Inspections Division conducts program and
           management reviews that involve on-site inspection, statistical
           analysis, and other techniques to review Department programs and
           activities and make recommendations for improvement.

       •   Investigations Division is responsible for investigating allegations of
           bribery, fraud, abuse, civil rights violations, and violations of other
           criminal laws and administrative procedures that govern Department
           employees, contractors, and grantees.

       •   Oversight and Review Division blends the skills of attorneys,
           investigators, and program analysts to investigate or review high


       1  The OIG has authority to investigate allegations of misconduct by any Department
employee, except for allegations of misconduct "involving Department attorneys, investigators,
or law enforcement personnel, where the allegations relate to the exercise of the authority of an
attorney to investigate, litigate, or provide legal advice . . . . " See 5 U.S.C. App. 3 §8E(b)(3).


Office of the Inspector General, U.S. Department of Justice                            Page 1
          profile or sensitive matters involving Department programs or
          employees.

      •   Management and Planning Division provides planning, budget,
          finance, personnel, training, procurement, automated data
          processing, computer network communications, and general support
          services for the OIG.

      •   Office of General Counsel provides legal advice to OIG management
          and staff. In addition, the office drafts memoranda on issues of law;
          prepares administrative subpoenas; represents the OIG in personnel,
          contractual, and legal matters; and responds to Freedom of
          Information Act requests.

      The OIG has a staff of approximately 420 employees, about half of whom
are based in Washington, D.C., while the rest work from 16 Investigations
Division field and area offices and 7 Audit Division regional offices located
throughout the country.

II. SECTION 1001 OF THE PATRIOT ACT

      Section 1001 of the Patriot Act provides the following:

            The Inspector General of the Department of Justice shall
            designate one official who shall ―

             (1)   review information and receive complaints alleging abuses
                   of civil rights and civil liberties by employees and officials
                   of the Department of Justice;

             (2)   make public through the Internet, radio, television,
                   and newspaper advertisements information on the
                   responsibilities and functions of, and how to contact, the
                   official; and

             (3)   submit to the Committee on the Judiciary of the House
                   of Representatives and the Committee on the Judiciary of
                   the Senate on a semi-annual basis a report on the
                   implementation of this subsection and detailing any
                   abuses described in paragraph (1), including a description
                   of the use of funds appropriations used to carry out
                   this subsection.




Office of the Inspector General, U.S. Department of Justice                Page 2
III. CIVIL RIGHTS AND CIVIL LIBERTIES COMPLAINTS

       Review information and receive complaints alleging abuses of civil rights
       and civil liberties by employees and officials of the Department of Justice.

      The OIG’s Special Operations Branch in its Investigations Division
manages the OIG’s investigative responsibilities outlined in Section 1001. 2 The
Special Agent in Charge who directs this unit is assisted by three Assistant
Special Agents in Charge (ASAC), one of whom assists on Section 1001
matters, a second who assists on FBI matters, and a third who provides
support on DEA and ATF cases. In addition, five Investigative Specialists
support the unit and divide their time between Section 1001 and
FBI/DEA/ATF responsibilities.

      The Special Operations Branch receives civil rights and civil liberties
complaints via mail, e-mail, telephone, and facsimile. The complaints are
reviewed by an ASAC who makes a decision concerning the disposition of each
complaint. After review, each complaint is entered into an OIG database by an
Investigative Specialist. The more serious civil rights and civil liberties
allegations that relate to actions of DOJ employees or DOJ contractors
normally are assigned to an OIG Investigations Division field office, where OIG
special agents conduct investigations of criminal violations and administrative
misconduct. 3 Some complaints are assigned to the OIG’s Oversight and Review
Division for investigation.

       Given the number of complaints received compared to its limited
resources, the OIG does not investigate all allegations of misconduct against
DOJ employees. The OIG refers many complaints involving DOJ employees to
internal affairs offices in DOJ components such as the FBI Inspection Division,
the DEA Office of Professional Responsibility, and the BOP Office of Internal
Affairs. In certain referrals, the OIG requires the components to report the
results of their investigations to the OIG. In most cases, the OIG notifies the
complainant of the referral.

      Many complaints received by the OIG involve matters outside our
jurisdiction. The ones that identify a specific issue for investigation are
forwarded to the appropriate investigative entity. For example, complaints of
mistreatment by airport security staff or by the Border Patrol are sent to the

      2 This unit also is responsible for coordinating the OIG’s review of allegations of

misconduct by employees in the FBI, DEA, and ATF.

        3 The OIG can pursue an allegation either criminally or administratively. Many OIG

investigations begin with allegations of criminal activity but, as is the case for any law
enforcement agency, do not end in prosecution. When this occurs, the OIG is able to continue
the investigation and treat the matter as a case for potential administrative discipline. The
OIG’s ability to handle matters criminally or administratively helps to ensure that a matter can
be pursued administratively even if a prosecutor declines to prosecute a matter criminally.


Office of the Inspector General, U.S. Department of Justice                           Page 3
Department of Homeland Security (DHS) OIG. We also have forwarded
complaints to the OIGs of the Department of Defense, the Department of State,
and the Social Security Administration. In addition, we have referred
complainants to state Departments of Correction that have jurisdiction over the
subject of the complaints.

       When an allegation received from any source involves a potential
violation of federal civil rights statutes by a DOJ employee, we discuss the
complaint with the DOJ Civil Rights Division for possible prosecution. In some
cases, the Civil Rights Division accepts the case and requests additional
investigation either by the OIG or the FBI. In other cases, the Civil Rights
Division declines prosecution and either the OIG or the appropriate DOJ
internal affairs office reviews the case for possible administrative misconduct.

      A. Complaints Processed This Reporting Period

       From July 1, 2009, through December 31, 2009, the period covered by
this report, the OIG processed 1,838 civil rights or civil liberties complaints. 4

       Of these complaints, we concluded that 1,677 did not fall within the
OIG’s jurisdiction or did not warrant further investigation. The vast majority
(1,649) of these complaints involved allegations against agencies or entities
outside the DOJ, including other federal agencies, local governments, or private
businesses. When possible, we referred those complaints to the appropriate
entity or advised complainants of the entity with jurisdiction over their
allegations. Some complaints (28) raised allegations that, on their face, did not
warrant investigation. Complaints in this category included, for example,
allegations that the United States was using illegal nuclear magnetic reactors,
that the FBI had taken control of the complainants computer, and that the FBI
director was aiding and abetting the criminal conduct of Nigerian officials.

      We found that 161 of the 1,838 total complaints involved DOJ employees
or DOJ components and included allegations that required further review. We
determined that 153 of these complaints raised management issues that
generally were not related to the OIG’s Section 1001 duties, and we referred
these complaints to DOJ components for appropriate handling. Examples of
complaints in this category included inmates’ allegations about the general



       4 These complaints include all matters in which the complainant made any mention of a

civil rights or civil liberties violation, even if the allegation was not within the OIG’s jurisdiction.

        The reported number of complaints processed is larger than in our prior Section 1001
reports because the OIG initiated a broader method of counting potential civil rights and civil
liberties complaints during this reporting period. However, the number of Section 1001-related
complaints within the OIG’s jurisdiction, or the number of such complaints warranting
investigation, has not significantly changed from previous reporting periods.


Office of the Inspector General, U.S. Department of Justice                                Page 4
conditions at federal prisons or complaints that the FBI did not initiate an
investigation into particular allegations.

       The OIG identified 8 complaints as matters that we believed warranted
an investigation to determine if Section 1001-related abuse occurred. One of
the eight matters was investigated by the OIG, and we referred the other seven
matters to the BOP for investigation. We discuss the substance of these 8
complaints in the next section of this report.

       None of the complaints we processed during this reporting period
specifically alleged misconduct by DOJ employees relating to use of a provision
in the Patriot Act.

      The following is a synopsis of the complaints processed during this
reporting period involving DOJ employees or components and that included
allegations requiring further review:

      Complaints processed:                        1,838

      Unrelated complaints:                        1,677

      Total complaints within OIG’s
      jurisdiction warranting review:                161

      Management issues:                             153

      Possible Section 1001 matters
      warranting investigation:                         8

    B. Section 1001 Cases This Reporting Period

      1. New matters

      As noted above, during this reporting period the OIG opened one new
Section 1001 investigation. Additionally, the OIG referred 7 Section 1001-
related complaints to the BOP for investigation.

   The following is a summary of the new matter opened by the OIG during
this reporting period:

         •   A Muslim inmate alleged that he was physically assaulted by a
             correctional officer. The OIG opened an investigation because the
             accused correctional officer had allegedly abused Muslim inmates
             in the past. The OIG interviewed the two correctional officers who
             were present at the alleged incident. Both denied assaulting or
             any inappropriate actions toward the inmate. The OIG determined


Office of the Inspector General, U.S. Department of Justice             Page 5
             that there was no security camera coverage of the area where the
             inmate alleged the assault occurred and no medical assessment
             was done of the inmate at the time. In addition, the OIG
             investigation also revealed that the inmate had a history of filing
             unsubstantiated complaints against BOP staff. The OIG closed
             this investigation as unsubstantiated.

      The following 7 complaints were referred by the OIG to the BOP for
investigation during this reporting period. The investigations of 4 of these
matters are continuing. The BOP completed its investigations of two of the
matters and did not substantiate those complaints. The BOP closed the one
remaining complaint administratively. For each of these referrals, we
requested that the BOP provide the OIG with a copy of its investigative report
upon completion of the investigation.

      Continuing investigations:

         •   A Muslim inmate alleged that a BOP staff member removed
             personal items from his display board and threw them away.
             According to the complaint, when the inmate questioned the
             correctional officer about the items, the correctional officer told
             him that they were gone. The inmate reported the matter to a unit
             manager, and he was told that nothing could be done.

         •   An inmate alleged that when he asked the facility’s chaplain to
             order religious materials for the Muslim community the chaplain
             told him that there was no money in the budget for such items.
             The inmate alleged that when he sent an e-mail to the associate
             warden requesting the religious services budget, he was accused of
             sending a threatening e-mail and told that he could be placed in
             solitary confinement or transferred to a different facility.

         •   A BOP employee sent an e-mail to other employees via the BOP’s
             network discouraging BOP staff from purchasing a U.S. postage
             stamp that allegedly recognized Islam. Another BOP employee
             added his comments and forwarded the message to approximately
             200 individuals, including BOP staff and management officials.

         •   A BOP employee forwarded an e-mail via the BOP’s network that
             made derogatory remarks about Muslims.

      BOP investigations closed during this reporting period:

         •   A Muslim inmate alleged that a correctional officer ordered him to
             unroll his pants legs. The inmate alleged that when he told two
             correctional officers that the chaplain allowed him to wear his


Office of the Inspector General, U.S. Department of Justice             Page 6
             pants in that manner for religious reasons, one of them grabbed
             him, shoved him into an office, and placed him in a “chicken wing
             hold.” The inmate alleged that he was then taken to the Special
             Housing Unit (SHU). The BOP interviewed the correctional officers
             involved in the incident. The correctional officers denied making
             any remarks to the inmate about his religious practices. They said
             that the inmate refused an order to unroll his pants legs, resisted
             being restrained, and assaulted a correctional officer while being
             escorted to the SHU. The BOP investigation determined that a
             medical examination conducted of the inmate revealed no injuries.
             In addition, the inmate admitted to the nurse that he shoved one of
             the correctional officers. The BOP concluded that the inmate’s
             allegations were unsubstantiated.

         •    An inmate reported that only Muslim inmates were placed in
             restrictive handcuffs known as “black boxes” during a particular
             prisoner transfer. The BOP investigation revealed that transfer
             records did not specify the manner of restraint for inmates during
             the transfer, and the bus lieutenant in charge of the transfer said
             he did not recall which inmates were placed in “black box”
             restraints. The “Transfer Receipt” for the particular prisoner
             transfer showed that the inmates referred to in the allegation were
             housed in a unit for inmates who required increased monitoring to
             protect the safety of BOP facilities and protect the public. BOP
             policy specifies standards for use of restraints and allows
             supervisory staff discretion to determine when more restrictive
             restraints are needed. The BOP investigation determined that use
             of “black boxes” during the particular transfer was reasonable in
             view of the security designation of the inmates being transferred.
             The BOP administratively closed this matter upon concluding that
             BOP policy was not violated.

         •    A BOP psychologist was notified by an unspecified individual that
             an inmate was refusing his medication. When the psychologist
             asked the inmate why he was doing this, the inmate alleged that a
             health technician was disrespectful towards him, screamed at him,
             and threatened to submit an incident report against the inmate.
             The inmate said he did not take his medication from that health
             technician. Another inmate told the psychologist that the same
             health technician made a derogatory statement about Muslims and
             that he feared that this health technician might assault him. Both
             inmates were interviewed during the BOP investigation. They told
             investigators that no violations occurred and that they had no
             issues with the health technician. The BOP concluded that the
             allegations were unsubstantiated.



Office of the Inspector General, U.S. Department of Justice            Page 7
      2. Continuing OIG investigations and cases referred to BOP during
         previous reporting periods that the OIG continues to monitor

     The following is a summary of an ongoing OIG investigation that was
opened during a prior reporting period.

        •   The OIG is investigating a Muslim inmate’s allegations that two
            BOP staff members told him they and others hated him because he
            is Arab and Muslim, and made crude statements to him relating to
            his religious articles. The inmate alleged further that BOP
            correctional officers directed other inmates to attack him and that
            he did not receive timely medical treatment for injuries resulting
            from the assault. In addition, the inmate alleged that several
            prison officials have threatened him in an effort to force him to
            withdraw these complaints. Other allegations made by the inmate
            include that his mail was withheld from him and that he was
            denied a transfer to another facility

      The OIG referred the following 2 complaints to the BOP for investigation
during a prior reporting period. The investigations of these 2 matters continue.
For each of these referrals, we requested that the BOP provide the OIG with a
copy of its investigative report upon completion of the investigation.

        •   An inmate reported that he sent a complaint to the Department of
            Health and Human Services regarding his concerns about the
            public health and safety of inmates at a BOP facility. The inmate
            alleged that subsequent to his sending that complaint, he was fired
            from his job at the facility where he was housed, subjected to a
            strip search without cause, sexually harassed, humiliated, and had
            his property confiscated by prison officials without their following
            proper procedures.

        •   An inmate who is originally from Pakistan alleged that he has been
            discriminated against by BOP employees because of his race and
            religion. The inmate alleged that he has been transferred several
            times and unfairly placed in the SHU, where he was harassed by
            correctional officers, did not receive timely medical treatment, had
            his legal documents confiscated, and was forced to sleep on dirty
            bed linens.




Office of the Inspector General, U.S. Department of Justice            Page 8
      3. Previously opened investigations that were closed during this
         reporting period

      The OIG completed its investigation of one Section 1001-related matter
during this reporting period.

        •   The OIG investigated an allegation made by the spouse of a Muslim
            inmate that the inmate was assaulted by BOP correctional officers,
            placed in the prison’s SHU, and prevented from participating in a
            religious program. The complainant alleged further that BOP staff
            told her that her husband had engaged in an unprovoked assault
            on BOP staff members, which gave rise to staff’s use of force against
            him. The OIG interviewed the complainant and the correctional
            officers who responded to the incident that resulted in the inmate’s
            assignment to the SHU. The complainant admitted that he
            possessed an electronic Koran in his cell and that he knew the
            electronic device was considered contraband at the facility.
            Complainant also admitted that when a correctional officer entered
            his cell, the inmate attempted to flush the contraband device down
            the toilet, which resulted in him being sent to the SHU. Although
            the inmate said correctional officers hit him on his back and on the
            back of his head while they escorted him to the SHU, he said he did
            not believe such conduct was related to his Muslim faith. The
            correctional officers denied hitting the inmate, or witnessing others
            doing so. The OIG concluded that the allegations were not
            substantiated and closed this investigation.

      BOP completed its investigations of 5 Section 1001-related matters
during this reporting period that had been referred by the OIG in prior periods.
For each of these referrals, we requested that the BOP provide the OIG with a
copy of its investigative report.

        •   An inmate alleged that he had been subjected to continuous
            discrimination and verbal abuse by BOP employees because he is
            from Afghanistan. The BOP’s investigation sustained the allegation
            of unprofessional conduct against two BOP employees and
            proposed one-day suspensions. However, the warden of the facility
            reduced the penalty for each employee to a counseling session
            because of the following mitigating circumstances: the employees
            recognized their actions were inappropriate and apologized to the
            complainant; neither employee had any prior discipline problems;
            and one of the employees was being deployed to Iraq for military
            duty.



Office of the Inspector General, U.S. Department of Justice            Page 9
        •   A BOP employee alleged that he was being verbally abused by BOP
            staff because he is Muslim. The BOP’s investigation substantiated
            that a correctional officer acted unprofessionally during a
            conversation with the complainant. The complainant’s allegation
            that the correctional officer and others made disparaging remarks
            to him about his national origin and sexual relations with his wife
            were not substantiated. The correctional officer was suspended for
            five days.

        •   A Muslim inmate alleged that BOP staff refused to allow him to
            return to his cell from the recreation yard despite his repeated
            requests to use the restroom. The inmate alleged that he has
            irritable bowel syndrome and suffered from stomach pain,
            cramping, and bloating when he was forced to stay in the recreation
            yard for 2 hours. The inmate alleged that non-Arab inmates were
            allowed to return to their cells to use the restroom. The BOP
            interviewed the correctional officers who were assigned to the
            recreation yard on the relevant date, and they said they did not
            recall the inmate asking to use the restroom. The inmate was
            unable to identify others who were allowed to return to their cells
            and he could not identify the correctional officers who he alleged
            prevented him from doing so. The BOP concluded that the inmate’s
            allegation was not substantiated.

        •   A Muslim inmate alleged that a BOP facility did not provide
            adequate locations within the housing unit for prayer. The inmate
            also alleged that he and other Muslim inmates were forced to work
            during times when they are required by their religion to pray, and
            that they were not permitted to bring their prayer rugs to their job
            sites within the facility. The inmate alleged further that BOP staff
            interrupted him when he attempted to pray in the recreation yard
            or in other areas of the facility, reportedly telling him that BOP
            rules do not allow prayer in public locations where inmates
            congregate or at job sites. The inmate also alleged that the facility
            does not offer a Halal diet, and as a result he is forced to eat foods
            prohibited by his religion. The inmate was transferred to another
            BOP facility after filing his complaint with the OIG. The inmate did
            not cooperate with the BOP investigation of this matter. He refused
            to provide investigators with a sworn statement and said his
            attorney would submit a statement on his behalf. BOP
            investigators attempted to contact the inmate’s attorney, but did
            not receive a response. The BOP also interviewed officials at the
            facility where the inmate alleged his religious needs were not
            accommodated, and they denied the allegations. The BOP
            concluded that there was insufficient evidence to substantiate the
            complainant’s allegations.


Office of the Inspector General, U.S. Department of Justice             Page 10
        •   An inmate alleged that a BOP physician’s assistant refused to
            provide him with medical treatment and called him a terrorist. The
            inmate further alleged that the physician’s assistant made false
            entries to his medical records chart that tarnished his character.
            The BOP interviewed the physician’s assistant, who denied the
            allegations. In addition, 3 correctional officers told BOP
            investigators that the inmate was causing a disturbance in the unit
            and that they did not hear the physician’s assistant call the inmate
            a terrorist. The BOP found no evidence that the physician’s
            assistant made false entries to the inmate’s medical records. The
            BOP concluded that there was insufficient evidence to substantiate
            the allegations.

IV. OTHER ACTIVITIES RELATED TO POTENTIAL CIVIL RIGHTS
    AND CIVIL LIBERTIES ISSUES

       The OIG conducts other reviews that go beyond the explicit requirements
of Section 1001 in order to implement more fully its civil rights and civil
liberties oversight responsibilities. The OIG has completed, initiated, or
continued several such special reviews that relate to the OIG’s duties under
Section 1001. These reviews are discussed in this section of the report.

      A. Review of the FBI’s Use of Exigent Letters and Other Informal
         Requests for Telephone Records

      In January 2010, the OIG completed a 289-page classified report
examining the extent of the FBI’s use of exigent letters to obtain telephone
records without legal process. The report also identified, for the first time,
other informal requests that the FBI used to obtain telephone records
improperly. In addition, the report examined the accountability of FBI
employees, supervisors, and managers who were responsible for these flawed
practices.

       The OIG issued an unclassified version of the report on January 20,
2010. Information that the FBI and the Intelligence Community considered to
be classified was redacted (blacked out) from this public report. Full classified
reports, without redactions, were provided to the Department, the FBI, the
Intelligence Community, and Congress.

       Two previous reports by the OIG, issued in March 2007 and March 2008,
generally described the FBI’s misuse of national security letters (NSLs) to
obtain sensitive records. In those reports, we noted the FBI’s practice of
issuing exigent letters, instead of NSLs or other legal process, to obtain
telephone records from three communications service providers. The exigent
letters requested telephone records based on alleged “exigent circumstances,”


Office of the Inspector General, U.S. Department of Justice             Page 11
and often inaccurately stated that grand jury subpoenas already had been
sought for the records. Our previous reports concluded that the FBI’s practice
of using exigent letters circumvented the requirements of the Electronic
Communications Privacy Act (ECPA) statute governing national security letters,
and violated Attorney General Guidelines and FBI policy.

       The OIG’s January 2010 report examined in detail the use of exigent
letters for telephone records that did not comply with legal requirements or FBI
policies governing the acquisition of these records. The report described how
the FBI issued over 700 exigent letters seeking records on more than 2,000
different telephone numbers from 2003 to 2006. Nearly all of these letters
referenced “exigent circumstances” as the basis for the request and asserted
that a grand jury subpoena or other legal process had been sought for the
records. In some cases, these exigent letters were used in urgent
investigations. However, the OIG’s investigation found that, contrary to the
statements in the letters, many of the investigations for which the letters were
used did not involve emergency or life-threatening circumstances (the standard
required under the ECPA for voluntary disclosure), and, also contrary to the
letters, subpoenas had not been sought for the records. Moreover, there was
no process by which a supervisor reviewed and approved the issuance of
exigent letters. In fact, FBI personnel were not even required to retain a copy of
the exigent letter.

       The report also identified other informal ways, in addition to the exigent
letters, by which the telephone service providers gave telephone records to the
FBI without legal process. For example, the OIG found that, rather than using
NSLs, other legal process, or even exigent letters, FBI personnel sought and
received telephone records based on informal requests made by e-mail, by
telephone, face-to-face, and even on post-it notes. We found that the FBI’s
Communications Analysis Unit (CAU) personnel made such informal requests
for records associated with at least 3,500 telephone numbers, although we
could not determine the full scope of this practice because of the FBI’s
inadequate record-keeping.

      The FBI also obtained telephone records using a practice referred to by
the FBI and the providers as “sneak peeks,” whereby the on-site
communications service providers’ employees would check their records and
provide a preview of the available information for a targeted phone number,
without documentation of any justification for the request from the FBI and
often without documentation of the fact of the request. At times, the service
providers’ employees simply invited FBI personnel to view the telephone
records on their computer screens.

       Notably, virtually none of these FBI requests for telephone records –
either the exigent letters or the other informal requests – was accompanied by
documentation explaining the authority for the requests or the investigative


Office of the Inspector General, U.S. Department of Justice             Page 12
reasons why the records were needed, and many of the requests lacked
information as basic as date ranges. This resulted in the FBI obtaining
substantially more telephone records covering longer periods of time than it
would have obtained had it complied with the NSL process, including records
that were not relevant to the underlying investigations. Many of these records
were uploaded into FBI databases.

       Our report also described other troubling practices, such as the FBI’s
use of “community of interest” requests without first determining that the
requested records were relevant to authorized investigations, and “hot number”
requests that we believe also violated the ECPA. We also uncovered misuse of
FBI administrative subpoenas for telephone records. In addition, we found
that the FBI made inaccurate statements to the FISA Court. In several
instances, the FBI submitted affidavits to the Court that information in FISA
applications was obtained through NSLs or a grand jury subpoena, when in
fact the information was obtained by other means, such as exigent letters.

       Our investigation found that the close relationship between the FBI’s
CAU and the three communications service providers facilitated the casual
culture surrounding the use of exigent letters and other informal requests for
telephone records at the FBI. Employees of one or more of these service
providers were physically located on-site in the FBI’s CAU from April 2003 to
January 2008. Although co-locating the service providers’ employees at the
FBI was originally an attempt to facilitate efficient and effective cooperation
between the FBI and the service providers, the proximity fostered close
relationships that blurred the line between the FBI and the service providers.
We concluded that this co-location, in combination with poor supervision and
ineffective oversight, contributed to the serious abuses we described in our
report.

       Additionally, the report described, also for the first time, three FBI media
leak investigations in which the FBI sought, and in two cases received,
telephone toll billing records or calling activity information for telephone
numbers assigned to reporters, without first obtaining required approval from
the Attorney General. In one of these cases, the FBI loaded the records it
obtained in response to an exigent letter into a database, where the records
stayed for over 3 years. The records were not removed until OIG investigators
determined that the records had been improperly obtained and we notified the
FBI. Our report concluded that serious lapses in training, supervision, and
oversight led to the FBI and the Department issuing these requests for the
reporters’ records without following legal requirements and their own policies.

       In general, the OIG found that FBI officials’ oversight of the use of exigent
letters and other informal requests, and the FBI’s initial attempts at corrective
action, were seriously deficient, ill-conceived, and poorly executed. From 2003
through 2006, FBI officials repeatedly failed to take steps to ensure that the


Office of the Inspector General, U.S. Department of Justice               Page 13
FBI’s requests for telephone records were consistent with the ECPA, the
Attorney General Guidelines, and Department policy. For three and a half
years, FBI officials and employees issued hundreds of exigent letters, failing to
object even to letters that contained inaccurate statements on their face. FBI
supervisors also failed to develop and implement an effective system for
tracking FBI requests for records or other information from the on-site
providers. FBI officials attempted to remedy the FBI’s failure to serve legal
process through legally deficient, after-the-fact blanket NSLs intended to
“cover” the records it had previously requested. And when FBI attorneys
became aware of the practice of using exigent letters, they failed to stop it,
participated in the ill-conceived efforts to remedy the problem after the fact,
and provided legal advice to the CAU that was inconsistent with the ECPA, the
Attorney General Guidelines, and FBI policy.

       After the OIG issued our first report in March 2007 on the FBI’s misuse
of national security letters, the FBI ended the use of exigent letters, issued
clear guidance on the use of national security letters and on the proper
procedures for requesting records in circumstances qualifying as emergencies
under the ECPA, provided training on this guidance, moved the three service
providers out of FBI offices, and expended significant effort to determine
whether improperly obtained records should be retained or purged from FBI
databases. Our report stated that the FBI should be credited for these actions.

       However, as a result of further deficiencies we uncovered in this review,
we believe the FBI and the Department need to take additional action to ensure
that FBI personnel comply with the statutes, guidelines, and policies governing
the FBI’s authority to request and obtain telephone records. The OIG’s report
contains thirteen recommendations for additional action that the OIG believes
is necessary to address the improper requests for telephone records uncovered
during the OIG’s investigation, and to ensure that the past abuses do not
recur. For example, we recommended that the FBI issue periodic guidance and
training relating to the authority of FBI employees to obtain telephone records,
ensure that requests for information made pursuant to contracts with
telephone service providers comply with federal law and Department policies,
and implement other corrective action to address the findings of this report.

      B. Review of the FBI’s Activities Under the FISA Amendments Act
         of 2008

       The FISA Amendments Act of 2008 (Act) established procedures for
conducting electronic surveillance on non-U.S. persons outside the United
States and required certain reporting by inspectors general whose agencies
participate in such activities. The OIG recently initiated reviews provided for
under the Act. As required by the Act, the OIG is examining the number of
disseminated FBI intelligence reports containing a reference to a U.S. person
identity, the number of U.S. person identities subsequently disseminated in


Office of the Inspector General, U.S. Department of Justice             Page 14
response to requests for identities not referred to by name or title in the
original reporting, the number of targets later determined to be located in the
U.S., and to the extent possible whether communications of such targets were
reviewed. In addition, the OIG is reviewing the FBI’s compliance with the Act’s
targeting and minimization procedures.

      C.   Review of the FBI’s Investigation of Certain Domestic Advocacy
           Groups

       The OIG is continuing its review of allegations that the FBI targeted
domestic advocacy groups for scrutiny based solely upon their exercise of
rights guaranteed under the First Amendment of the United States
Constitution. The review is examining allegations regarding the FBI’s
investigation, and the predication for any such investigation, of groups
including the Thomas Merton Center, Greenpeace, and People for the Ethical
Treatment of Animals (PETA).

      D.   Review of the Department’s Use of Material Witness Warrants

       The OIG recently began a review of the Department’s use of material
witness warrants. The review is examining trends in the use of such warrants
and other issues related to the use of material witness warrants, including
conditions of release, periods and conditions of confinement, access to counsel,
costs, and the Department’s controls over their use.

V. EXPENSE OF IMPLEMENTING SECTION 1001

      Section 1001 requires the OIG to:

      Submit to the Committee on the Judiciary of the House of Representatives
      and the Committee on the Judiciary of the Senate on a semi-annual basis
      a report…including a description of the use of funds appropriations used to
      carry out this subsection.

       During this reporting period, the OIG spent approximately $983,466 in
personnel costs, $6,607 in travel costs (for investigators to conduct interviews),
and $848 in miscellaneous costs, for a total of $990,921 to implement its
responsibilities under Section 1001. The total personnel and travel costs
reflect the time and funds spent by OIG special agents, inspectors, and
attorneys who have worked directly on investigating Section 1001-related
complaints, conducting special reviews, and implementing the OIG’s
responsibilities under Section 1001.




Office of the Inspector General, U.S. Department of Justice             Page 15
